January 22, 2021
Scott S. Harris
Clerk, Supreme Court of the United States
One First Street, NE
Washington, DC 20543
RE:

Planned Parenthood Center for Choice v. Abbott, No. 20-305
Planned Response to Respondents’ Supplemental Brief

Dear Mr. Harris:
The Court is set to consider the pending petition for certiorari in the above-captioned
matter at its conference today, January 22, 2021. This morning I received notice through
the Court’s electronic filing system that respondents have filed a supplemental brief to
draw this Court’s attention to a Fifth Circuit decision issued nine days ago. Respondents
provide no justification for waiting until the morning of conference for their supplemental
filing, nor have they served that filing on petitioners via email.
Petitioners wish to respond to respondents’ supplemental brief. We therefore respectfully
request that the Court defer consideration of the petition until its next conference so that
petitioners may file their own supplemental brief or, in the alternative, that the Court not
consider respondents’ eleventh-hour supplemental brief.
Respectfully submitted,
/s/ Julie A. Murray
Julie A. Murray
Planned Parenthood Federation of America
1110 Vermont Avenue, NW, Suite 300
Washington, DC 20005
(202) 803-4045
julie.murray@ppfa.org
Counsel of Record for Petitioners
cc: Counsel of record

